               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-00026-10




      Community Based Outpatient 

            Clinic Reviews 

                   at 

     Kansas City VA Medical Center 

           Kansas City, MO 





November 13, 2013

                         Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                  CBOC Reviews at Kansas City VAMC



                                              Glossary
                       ADA      Americans with Disabilities Act
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       EHR      electronic health record
                       EKG      electrocardiogram
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       IT       Information Technology
                       MH       mental health
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       PCP      primary care physician
                       VAMC     VA Medical Center
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                                    CBOC Reviews at Kansas City VAMC



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 15 Director Comments .............................................................................                     12

  B. Kansas City VAMC Director Comments ............................................................                             13

  C. OIG Contact and Staff Acknowledgments .........................................................                             17

  D. Report Distribution .............................................................................................           18





VA OIG Office of Healthcare Inspections
                                                                CBOC Reviews at Kansas City VAMC



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of August 26, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

    VISN        Facility                   CBOC Name                Location
                                           Belton                   Belton, MO
      15        Kansas City VAMC           Excelsior Springs        Excelsior Springs, MO
                                           Louisburg-Paola          Paola, KS
                                     Table 1. Sites Inspected

Review Results: We made recommendations in four review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

   Ensure that the ordering provider or surrogate is notified of normal cervical cancer
    screening results within the required timeframe and that notification is documented
    in the EHR.

   Ensure that patients with normal cervical cancer screening results are notified of
    results within the required timeframe and that notification is documented in the EHR.

   Ensure that clinicians screen patients for tetanus vaccinations.

   Ensure that clinicians administer tetanus vaccines when indicated.



VA OIG Office of Healthcare Inspections                                                       i
                                                       CBOC Reviews at Kansas City VAMC


	 Ensure that clinicians administer pneumococcal vaccines when indicated.

	 Ensure that clinicians document all required pneumococcal vaccine administration
   elements and that compliance is monitored.

	 Ensure the medical staff’s Executive Committee grants privileges consistent with the
   services provided at the Belton, Excelsior Springs, and Louisburg-Paola CBOCs.

	 Ensure that handicap parking spaces, as required by the ADA, are added at the
   Louisburg-Paola CBOC.

	 Ensure that the restrooms meet the ADA requirements at the Belton CBOC.

Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A
and B, pages 12–16, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                   JOHN D. DAIGH, JR., M.D. 

                                                  Assistant Inspector General for 

                                                     Healthcare Inspections





VA OIG Office of Healthcare Inspections                                               ii
                                                                       CBOC Reviews at Kansas City VAMC



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                           CBOC Reviews at Kansas City VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Three CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                  2
                                                                                                                    CBOC Reviews at Kansas City VAMC



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                            Uniques FY             Visits FY
VISN          Parent Facility                  CBOC Name                   Locality6                                                  CBOC Size9
                                                                                              20127                  20128
    15      Kansas City VAMC                       Belton                    Urban             1,963                 5,552              Mid-Size
                                                (Belton, MO)
                                                  Cameron                    Rural               1,238               4,583                Small
                                              (Cameron, MO)
                                             Excelsior Springs               Rural               1,694               5,795              Mid-Size
                                          (Excelsior Springs, MO)
                                             Louisburg-Paola                 Rural               1,181               3,820                Small
                                                 (Paola, KS)
                                                   Nevada                    Rural               1,858               9,555              Mid-Size
                                               (Nevada, MO)
                                                Warrensburg                  Rural               2,278               7,769              Mid-Size
                                            (Warrensburg, MO)
                                                             Table 2.       Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                                       CBOC Reviews at Kansas City VAMC



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review elements marked as NC needed improvement.
Details regarding the findings follow the table.

            NC                                        Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
             X                 within the defined timeframe.
             X                 Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                Table 3. WH

There were 18 patients who received a cervical cancer screening at the
Kansas City VAMC’s CBOCs.

Provider Notification. VHA requires that normal cervical cancer screening results must
be reported to the ordering provider or surrogate within 30 calendar days of the report
being issued and the notification is documented in the EHR.13 We reviewed the EHRs
of 17 patients who had normal cervical cancer screening results and did not find
documentation in 4 records that the ordering provider or surrogate was notified within
30 calendar days.



10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality 

Web-based report. 

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

13
   VHA Handbook 1330.01. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                                        CBOC Reviews at Kansas City VAMC


Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 17 EHRs of patients who had normal cervical cancer
screening results and determined that 7 patients were not notified within the required
14 days from the date the pathology report became available. These notifications must
be documented in the EHR.14

Recommendations

1. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of normal cervical cancer screening results within the required
timeframe and that notification is documented in the EHR.

2. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.15
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or
near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, a one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as NC needed improvement. Details regarding the findings follow the table.

          NC                                       Areas Reviewed
           X           Staff screened patients for the tetanus vaccination.
           X           Staff administered the tetanus vaccine when indicated.
                       Staff screened patients for the pneumococcal vaccination.
           X           Staff administered the pneumococcal vaccine when indicated.
           X           Staff properly documented vaccine administration.
                                             Table 4. Vaccinations


14
     VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

15
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 



VA OIG Office of Healthcare Inspections                                                                        5
                                                                      CBOC Reviews at Kansas City VAMC


Tetanus Vaccination Screening. Through clinical reminders, VHA requires that CBOC
clinicians screen patients for tetanus vaccinations.16 We reviewed 70 patients’ EHRs
and did not find documentation of tetanus vaccination screening in 36 of the EHRs.

Tetanus Vaccine Administration. The CDC recommends that, when indicated, clinicians
administer the tetanus vaccine.17 We reviewed the EHRs of 34 patients and did not find
documentation in 4 of the EHRs that the tetanus vaccine had been administered.

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.18 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of two patients with pre-existing
conditions who received their first vaccine prior to the age of 65 and did not find
documentation in either of the EHRs indicating that their second vaccinations had been
administered.

Documentation of Pneumococcal Vaccination.               Federal Law requires that
documentation for administered vaccines include specific elements, such as the vaccine
manufacturer and lot number of the vaccine used.19 We reviewed the EHRs of
34 patients who received a pneumococcal vaccine administration at the parent facility or
its associated CBOCs and did not find documentation of all the required information
related to pneumococcal vaccine administration in 8 of the EHRs.

Recommendations

3. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

4. We recommended that managers ensure that clinicians administer tetanus vaccines
when indicated.

5. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

6. We recommended that managers ensure that clinicians document all required
pneumococcal vaccine administration elements and that compliance is monitored.




16
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 

17
   Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/. 

18
   Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/. 

19
   Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.



VA OIG Office of Healthcare Inspections                                                                      6
                                                                   CBOC Reviews at Kansas City VAMC



                                Onsite Reviews 

                        Results and Recommendations 

CBOC Characteristics
We formulated a list of CBOC characteristics that includes identifiers and descriptive
information for the randomly selected CBOCs (see Table 5).

                                   Belton               Excelsior Springs           Louisburg-Paola
 VISN                                15                         15                        15

 Parent Facility              Kansas City VAMC          Kansas City VAMC           Kansas City VAMC

 Types of Providers                 PCP               Licensed Clinical Social           PCP
                                                              Worker                  Psychologist
                                                         Nurse Practitioner
                                                               PCP
                                                            Psychiatrist
 Number of MH                        11                         41                        97
 Uniques, FY 2012
 Number of MH                        19                         107                       402
 Visits, FY 2012
 MH Services Onsite                 Yes                         Yes                       Yes

 Specialty Care Services            None                       None                      None
 Onsite
 Ancillary Services                EKG                           EKG                     EKG
 Provided Onsite                 Laboratory                  Laboratory                Laboratory
                                                              Pharmacy
 Tele-Health Services               EKG                          EKG                      EKG
                                     MH                    Retinal Imaging                 MH
                               Retinal Imaging                    MH                 Retinal Imaging
                           Care Coordination Home           Primary Care         Care Coordination Home
                                 Telehealth           Care Coordination Home           Telehealth
                                                              Telehealth
                                         Table 5. Characteristics




VA OIG Office of Healthcare Inspections                                                               7
                                                            CBOC Reviews at Kansas City VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.20 Table 6 shows the areas reviewed for this topic. The CBOCs identified as
NC needed improvement. Details regarding the findings follow the table.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
      Belton             Privileges granted to providers were setting, service, and provider
 Excelsior Springs       specific.
 Louisburg-Paola


20
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    8
                                                          CBOC Reviews at Kansas City VAMC


         NC                              Areas Reviewed (continued)
                       The determination to continue current privileges was based in part
                       on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

Clinical Privileges. VHA policy requires that privileges granted to an applicant must be
setting specific and based on the procedures and types of services that are provided
within that setting. At the Belton, Excelsior Springs, and Louisburg-Paola CBOCs, we
found that a provider had privileges for procedures that were not performed at their
respective CBOCs. For example, we found privileges granted for endo-tracheal
intubation and admitting patients.

Recommendation

7. We recommended that the medical staff’s Executive Committee grants privileges
consistent with the services provided at the Belton, Excelsior Springs, and
Louisburg-Paola CBOCs.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOCs identified as NC needed improvement. Details regarding the findings follow the
table.

       NC                                    Areas Reviewed
      Belton        The CBOC was ADA-compliant, including: parking, ramps, door
    Louisburg-      widths, door hardware, restrooms, and counters.
      Paola
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.


VA OIG Office of Healthcare Inspections                                                 9
                                                             CBOC Reviews at Kansas City VAMC


            NC                               Areas Reviewed (continued)
                         Medications were secured from unauthorized access.
                         Privacy was maintained.
                         Patients’ personally identifiable information was secured and
                         protected.
                         Laboratory specimens were transported securely to prevent
                         unauthorized access.
                         Staff used two patient identifiers for blood drawing procedures.
                         IT security rules were adhered to.
                         There was alcohol hand wash or a soap dispenser and sink available
                         in each examination room.
                         Sharps containers were less than 3/4 full.
                         Safety needle devices were available for staff use (e.g., lancets,
                         injection needles, phlebotomy needles).
                         The CBOC was included in facility-wide EOC activities.
                                            Table 7. EOC

Handicap Parking. The ADA requires handicap parking spaces. 21 We found there were
no designated handicap spaces in the parking lot at the Louisburg-Paola CBOC.

Restrooms. The ADA requires that facility doors are equipped with handles that are
easy to grasp with one hand and do not require tight grasping, pinching, or twisting of
the wrist to operate. Additionally, the ADA requires that controls and operating
mechanisms shall be operable with one hand and shall not require tight grasping,
pinching, or twisting of the wrist. The restroom door handles required a tight grasp and
twisting motion to open, and the sink faucets required twisting of the wrist to operate at
the Belton CBOC.

Recommendations

8. We recommended that handicap parking spaces, as required by the ADA, are
added at the Louisburg-Paola CBOC.

9. We recommended that the restrooms meet the ADA requirements at the Belton
CBOC.

Emergency Management

VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.22 Table 8 shows the areas
reviewed for this topic.




21
     http://www.ada.gov/restripe.htm
22
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                   10
                                                           CBOC Reviews at Kansas City VAMC


        NC                                      Areas Reviewed
                     There was a local medical emergency management plan for this
                     CBOC.
                     The staff articulated the procedural steps of the medical emergency
                     plan.
                     The CBOC had an automated external defibrillator onsite for cardiac
                     emergencies.
                     There was a local MH emergency management plan for this CBOC.
                     The staff articulated the procedural steps of the MH emergency
                     plan.
                                 Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                                 11
                                                         CBOC Reviews at Kansas City VAMC
                                                                              Appendix A
                           VISN 15 Director Comments


               Department of
               Veterans Affairs                             Memorandum


       Date:           October 8, 2013

       From:           Director, VISN 15 (10N15)

       Subject:        CBOC Reviews at Kansas City VAMC

       To:             Director, 54KC Healthcare Inspections Division (54KC)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)



       Attached, please find the initial status response for the Kansas City
       VA Medical Center Community Based Outpatient Clinic Reviews in
       Belton, MO; Excelsior Springs, MO; and Paola, KS (conducted the week of
       August 26, 2013).

       I have reviewed and concur with the Medical Center Director’s response.
       Thank you for this opportunity to focus on continuous performance
       improvement.

       For additional questions, please feel free to contact Jimmie Bates,
       VISN 15 Quality Management Officer at 816-701-3014.




       William P. Patterson, MD, MSS
       Network Director
       VA Heartland Network (VISN 15)




VA OIG Office of Healthcare Inspections                                               12
                                                         CBOC Reviews at Kansas City VAMC
                                                                              Appendix B
                  Kansas City VAMC Director Comments



               Department of
               Veterans Affairs                                Memorandum


       Date:           October 7, 2013 


       From:           Director, Kansas City VAMC (589/00) 


       Subject:        CBOC Reviews at Kansas City VAMC

       To:             Director, VISN 15 (10N15) 




       Attached, please find the responses to the OIG-CBOC Review.




       Kent Hill
       Director, Kansas City VA Medical Center




VA OIG Office of Healthcare Inspections                                               13
                                                            CBOC Reviews at Kansas City VAMC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of normal cervical cancer screening results within the required
timeframe and that notification is documented in the EHR.

Concur

Target date for completion: November 30, 2013

The Primary Care Team is working with IT staff to modify the existing template for
notification on test results to include, specifically, cervical cancer screening results. With
this revised template there is a new process related to cervical cancer screening results.
The results come to the provider or surrogate through a view alert. Once the provider
has the results, the patient notification process can begin. When the patient is notified of
the test results by the provider, the provider has to initiate this resulting template and
that will provide documentation that the provider is aware of the results and the patient
has been notified.

2. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: November 30, 2013

The primary care team is working with IT staff to modify the existing template for patient
notification of test results to include specifically cervical screening results.

3. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

Concur

Target date for completion: January 30, 2014

A clinical reminder is under development by a primary care provider team. It is
anticipated that it will take 2 months to build, and then 1-2 months to train and
implement.




VA OIG Office of Healthcare Inspections                                                    14
                                                        CBOC Reviews at Kansas City VAMC


4. We recommended that managers ensure that clinicians administer tetanus vaccines
when indicated.

Concur

Target date for completion: January 30, 2014

A clinical reminder is under development by a primary care provider team. It is
anticipated that it will take 2 months to build, and then 1-2 months to train and
implement.

5. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

Concur

Target date for completion: Completed

Facility has implemented a replacement of the previous reminder supporting the correct
pneumococcal vaccine is administered.

6. We recommended that managers ensure that clinicians document all required
pneumococcal vaccine administration elements and that compliance is monitored.

Concur

Target date for completion: Completed

Facility has implemented a replacement of the previous reminder supporting the correct
pneumococcal vaccine is administered. The clinical reminder report will be reviewed
monthly for documentation and achievement of greater than 90 percent compliance.

7. We recommended that the medical staff’s Executive Committee grants privileges
consistent with the services provided at the Belton, Excelsior Springs, and
Louisburg-Paola CBOCs.

Concur

Target date for completion: December 6, 2013

Clinical privileges for providers currently assigned to CBOC locations will be reviewed
and any privileges not consistent with the location of service will be administratively
suspended pending final action in the next privileging cycle. This interim action will be
completed by November 1, 2013. Templates used for clinical privileges for primary care
providers assigned to CBOC duty stations will be revised to eliminate options for any
privileges not consistent with CBOC location. These templates will be used for all new
appointments and reappointments in the clinical privileging process.




VA OIG Office of Healthcare Inspections                                               15
                                                CBOC Reviews at Kansas City VAMC


8. We recommended that handicap parking spaces, as required by the ADA, are
added at the Louisburg-Paola CBOC.

Concur

Target date for completion: November 30, 2013

Contracting Office is working with the owner of the CBOC to accomplish this
modification.

9. We recommended that the restrooms meet the ADA requirements at the Belton
CBOC.

Concur

Target date for completion: November 30, 2013

Contracting Office is working with the owner of the CBOC to accomplish this
modification.




VA OIG Office of Healthcare Inspections                                      16
                                                          CBOC Reviews at Kansas City VAMC
                                                                               Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Laura Snow, LCSW, MHCL, Team Leader
Contributors            Cindy Niemack-Brown, CMSW, LMHP
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        James Seitz, RN, MBA
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jennifer Whitehead, Program Support Assistant
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  17
                                                       CBOC Reviews at Kansas City VAMC
                                                                            Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 15 (10N15)
Director, Kansas City VAMC (589/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Roy Blunt, Claire McCaskill, Jerry Moran, Pat Roberts
U.S. House of Representatives: Emanuel Cleaver, Sam Graves, Vicky Hartzler,
 Kevin Yoder


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              18
